NO:

IN THE
SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2021
GABRIEL MARTINEZ,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

DECLARATION VERYING TIMELY FILING

Petitioner Gabriel Martinez, by and through undersigned counsel, and
pursuant to Sup. Ct. R. 29.2 and 28 U.S.C. ยง 1746, declares that the Petition for
Writ of Certiorari filed in the above-styled matter was sent in an envelope via third
party commercial carrier for delivery within three days, addressed to the Clerk of the
Supreme Court of the United States, on the 26th day of August, 2021, which is prior
to the time the petition for writ of certiorari is due on August 30, 2021.
MICHAEL CARUSO
Federal Public Defender
By:
Miami, Florida
August 26, 2021

/s/ Kate Taylor
Kate Taylor
Assistant Federal Public Defender
150 West Flagler Street, Suite 1700
Miami, FL 33130
305-530-7000

